OIG Audit Report 97-03
FUEL PURCHASES BY THE BUREAU OF PRISONS,
THE FEDERAL BUREAU OF INVESTIGATION, AND
THE IMMIGRATION AND NATURALIZATION SERVICE
Audit Report 97-03, (1/97)
TABLE OF CONTENTS
AUDIT RESULTS
BACKGROUND
FINDINGS AND RECOMMENDATIONS
FUELS COULD BE PURCHASED MORE ECONOMICALLY
Bureau of Prisons' Savings on Excise Taxes by
Installing Fuel Tanks
Recommendation
BOP Can Save Excise Taxes on Bulk Fuel Purchases
Recommendation
BOP, INS, and the FBI Can Save on Bulk Purchases of
Reduced Octane Gasoline
Recommendation
BOP Can Save on Bulk Fuel Purchases through the DFSC
Recommendation
The FBI Can Save on Retail Purchases of Reduced Octane
Gasoline
Recommendation
SCHEDULE OF DOLLAR-RELATED FINDINGS
STATEMENT ON MANAGEMENT CONTROL STRUCTURE
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS
APPENDIX I - AUDIT SCOPE AND METHODOLOGY
APPENDIX II - BOP ANNUAL FEDERAL EXCISE TAX AVOIDANCE
AUDIT RESULTS
The Office of the Inspector General, Audit Division, has completed an audit of fuel
purchases by the Bureau of Prisons (BOP), the Federal Bureau of Investigation (FBI), and
the Immigration and Naturalization Service (INS). We focused our audit on bulk fuel
purchases by BOP, INS, and the FBI and retail fuel purchases by the FBI for FY 1995 and
projected FY 1996.
Together, BOP, INS, and the FBI spent about $6 million in FY 1995 for bulk fuel
purchases. The agencies purchase bulk fuels to use for heating and power generation, and
fueling motor vehicles and equipment. Fuel is purchased in bulk for convenience, security,
and cost efficiency. The FBI's retail purchase of gasoline was primarily to fuel its fleet
of 11,500 vehicles. The FBI spends over $7 million annually for retail purchases of
gasoline.
We determined that there are varying degrees of cost savings possible in each of the
three components audited:
· The FBI could save about $603,000 annually on retail fuel purchases for its vehicles
if regular gasoline was purchased instead of mid-grade and premium gasoline. The FBI could
save an additional $29,000 annually on bulk purchases if regular gasoline was purchased
instead of premium gasoline.
· BOP could realize cost savings of about: (1) $23,500 annually, or about $222,000
over the estimated useful life of the investment, by purchasing and installing additional
bulk tanks at four field locations; and (2) $50,000 annually on its bulk fuel purchases by
avoiding paying unnecessary excise taxes,1 purchasing bulk regular
gasoline instead of mid-grade and premium gasoline, and by increasing bulk purchases using
a Defense Fuel Supply Center (DFSC)2 contract.
· INS could save over $13,000 annually by discontinuing its bulk purchase of mid-grade
and premium gasoline and replacing it with regular gasoline.
Prior to the issuance of this report, we discussed and reached agreement with FBI, INS,
and BOP management on the findings and recommendations. The report discusses conditions
found, our recommendations, and actions necessary for final closure. These matters are
discussed in the Finding and Recommendations section of the report. Our audit scope and
methodology are addressed in Appendix I.
BACKGROUND
The FBI investigates violations of federal criminal law; protects the United States
from foreign intelligence activities; and provides leadership and assistance to federal,
state, local, and international agencies. The FBI is comprised of a Headquarters and 56
field offices. The FBI's annual funding for FY 1995 was over $2.1 billion.
The INS enforces laws regulating the admission of foreign-born persons (i.e., aliens)
to the United States and administers various immigration benefits, including the
naturalization of resident aliens. The INS has 3 regional offices, 4 service centers, 36
district offices, and 21 border patrol sectors. INS' operating budget for FY 1995 was
about $2 billion.
The BOP confines offenders in the controlled environments of prison and community-based
facilities. In FY 1995, BOP was charged with the care and custody of approximately 89,000
offenders in 85 federal facilities throughout the United States. The BOP operating budget
for FY 1995 was over $2.7 billion.
The type and amount of fuel purchased varied due to agency size and mission. According
to the agencies, the tables below present forecasted gasoline and diesel usage for FY
1996:
FY 1996 Gasoline Usage
Bulk
(Gallons)
Retail
(Gallons)
Total
(Gallons)
Bulk
Percentage
BOP
1,382,253
212,354
1,594,607
87
FBI
569,148
6,480,000
7,049,148
8
INS
3,246,391
4,077,386
7,323,777
44
FY 1996 Diesel Fuel Usage
Bulk
(Gallons)
Retail
(Gallons)
Total
(Gallons)
Bulk
Percentage
BOP
721,364
104,947
826,311
87
FBI
Negligible
Negligible
Negligible
N/A
INS
567,676
1,583,288
2,150,964
26
The agencies' bulk purchase decisions are made at the local level. Generally, high
volume bulk purchases, 10,000 gallons or more annually, should be acquired through a DFSC
contract. Low volume bulk purchases, less than 10,000 gallons annually, are purchased
locally on a competitive bid basis. For all three agencies, field site personnel are
responsible for reviewing the reasonableness and accuracy of bulk purchase invoices.
FINDINGS AND RECOMMENDATIONS
FUELS COULD BE PURCHASED MORE ECONOMICALLY
Based on our survey of current usage, the BOP, INS, and FBI could purchase fuel more
economically. Specifically, the installation and use of additional bulk fuel tanks could
result in savings to BOP of about $222,000 over 30 years. In addition, different retail
and bulk fuel purchasing strategies, such as buying lower octane gasoline, and avoidance
of inapplicable federal and state excise taxes, could result in annual savings to the FBI,
BOP, and INS of over $694,000.
Bureau of Prisons' Savings on Excise Taxes
by Installing Fuel Tanks
BOP's diesel fleet consists of buses, heavy equipment (back hoes, forklifts, etc.),
grounds and farming equipment, and trucks. Based on discussions with garage foremen and
facility managers, the majority of garage diesel fuel is consumed on BOP grounds. The
Internal Revenue Code requires that diesel fuel used on public highways be taxed (this tax
is known as a federal excise tax (FET)). Federal agencies, which consume diesel fuel
entirely within their facilities, are exempt from the payment of the FET because they do
not meet the "on public highway" test for FET applicability. For ease of tax
status identification, the Internal Revenue Service requires that diesel fuel used for a
non-taxable purpose be dyed. Taxed diesel fuel is undyed, typically referred to as clear.
The purchaser of diesel fuel can acquire either dyed or clear diesel fuel and is
responsible for ensuring the correct use.
Currently, BOP institutions normally have only one diesel tank for the garage. The tank
is usually filled with clear diesel fuel because clear fuel can be used either on or off
prison grounds, while dyed fuel must be consumed entirely within grounds. We determined
that the BOP could lower its FET payments and save about $222,000 over 30 years3 by installing additional bulk fuel tanks at four field locations.
The additional bulk tanks would allow BOP to store both clear and dyed fuel instead of
purchasing only taxable clear diesel fuel. The four locations, their annual diesel fuel
usage, and their FET avoidance appear in Appendix II of the report.
The size of the additional tank should vary depending on the specific location's clear
and dyed diesel usage. We based our projected cost savings on the most likely scenario.
Typically, the current BOP diesel tank has a 2,000 gallon capacity. The BOP estimated that
purchase and installation costs are about $17,500 for a 2,000 gallon tank. Based on
information provided by field personnel, we estimate that the annual maintenance cost per
tank is about $400 per year.
To arrive at our net savings, we evaluated the cost and benefit of BOP installing 2,000
gallon tanks at the four field sites using the net present value method for allocating
capital between investment projects. We calculated the present value of the annual FET
savings, less maintenance costs, over the 30 year useful life of the tanks ($291,612),4 and subtracted the purchase and installation costs ($70,000)5 to arrive at a net present value ($221,612)
of purchasing and installing the tanks at the four field sites. Given that the present
value of the future cash flow is greater than the purchase and installation costs of the
fuel tanks, this project is worth undertaking. We also calculated the internal rate of
return6 for the investment. The internal rate of return for
installing the four bulk fuel tanks is 34 percent.7
If BOP adopts this approach and installs additional storage tanks, it would need to
segregate its garage diesel fleet into clear and dyed groups. Any BOP vehicle which
travels to any extent on public roads must always be filled with clear diesel. We suggest
that a warning label be affixed to all on-road vehicles mandating the exclusive use of
clear diesel.
Prior to issuance of this report, we discussed the finding with BOP management and
obtained concurrence on the recommendation. The actions necessary for final closure are
discussed following the recommendation.
Recommendation
We recommend the Director, BOP:
1. Install additional bulk storage tanks at the sites identified (Appendix II).
Resolved. This recommendation can be closed when we receive documentation that
the additional bulk storage tanks have been installed at the four sites.
BOP Can Save Excise Taxes on Bulk Fuel Purchases
In addition to FET, states also tax motor vehicle fuels; however, states should exempt
federal agencies from taxation on bulk gasoline and diesel fuel purchases. Therefore, bulk
purchasing by federal agencies should eliminate state excise taxes, which range from $.075
to $.29 per gallon, with a national average of $.18 per gallon.
We determined that the BOP paid $18,569 in unnecessary FET and
state excise taxes (SET). As shown in the following table, 6 of the 68 BOP sites paid FET
on dyed diesel fuel, which is not subject to FET, or purchased clear diesel fuel, which is
subject to FET, for non-taxable use. Additionally, 4 of the 68 BOP sites paid SET when
they were exempt from the tax by law.
Payment of Unnecessary Taxes
Location
FET
SET
Total
Texarkana, TX
$3,904
$3,904
El Paso, TX
$1,363
$1,363
Boron, CA
$ 730
$ 730
Montgomery, PA
$2,928
$2,928
Pekin, IL
$5,053
$5,053
Cumberland, MD
$1,604
$1,604
Oakdale, LA
$ 224
$2,100
$2,324
Brooklyn, NY
$ 286
$ 377
$ 663
Total
$9,435
$9,134
$18,569
These payments were apparently made because BOP staff were unfamiliar with the
applicability of federal and state taxes and the use distinctions between clear and dyed
diesel fuel.
Prior to issuance of this report, we discussed the finding with BOP management and
obtained concurrence on the recommendation. The actions necessary for final closure are
discussed following the recommendation.
Recommendation
We recommend the Director, BOP:
2. Reemphasize guidance on FET and SET tax applicability.
Resolved. This recommendation can be closed when we receive documentation that
the BOP has reemphasized, by memorandum to its field sites, the guidance on FET and SET
tax applicability.
BOP, INS, and the FBI Can Save on Bulk Purchases
of Reduced Octane Gasoline
The BOP, INS, and FBI purchase gasoline in bulk for use in their vehicles. Under the
provisions of 41 CFR Subpart 101-38.401-1, Gasoline for use in Motor Vehicles,
manufacturers' recommendations for octane requirements should be followed. Further,
agencies are prohibited from purchasing premium gasoline, except for those vehicles that
require premium gasoline.
In order to determine an acceptable octane level for high performance vehicles (police
cruisers, reactive vehicles, and surveillance vehicles), we solicited opinions from
automobile manufacturers, Ford and Chevrolet, to obtain recommendations on police cruiser
vehicles. The vehicle manufacturers stated that for police cruiser vehicles, the
recommended octane level is 87 octane, which is regular gasoline.
Currently, the BOP, INS, and FBI, to varying extents, purchase non-regular (mid-grade
and premium (88-93 octane)) gasoline for their bulk fuel tanks. The percentage of
non-regular bulk purchases is 28 percent for the BOP, 100 percent for the FBI, and 13
percent for the INS. We estimate that the BOP, INS and FBI could achieve annual savings of
over $58,000 by buying regular gasoline rather than mid-grade and premium gasoline for its
bulk tanks. These estimates are based on the price differences between the grades of
gasoline as reported to us by the field sites we surveyed.
Based upon the responses to our fuel surveys, we calculated average cost per gallon for
each type of gasoline. Our calculations include FET; however, we excluded SET because the
rate and applicability of excise and motor fuels taxes varies by state and would cause
distortions in our computations. The base averages for FY 1995 were as follows:
Regular
(87 Octane)
$.86
Mid-grade
(88-89 Octane)
$.88
Premium
(91-93 Octane)
$.92
The price spread between regular gasoline and premium gasoline is significantly greater
at retail than when purchased in bulk. The estimated price difference between regular
gasoline and premium gasoline is only about $.06 per gallon at bulk, however, at retail,
the difference is about $.18 per gallon.8
Our computation of bulk fuel savings for the BOP, FBI, and the INS follow.
Estimated Annual Bulk Gasoline Savings by Agency
Recommended
Change
Annual Usage
(Gallons)
Excess
Cost
Cost
Savings
FBI
Premium to Regular
477,5469
X
$.06
=
$28,653
BOP
Mid-grade to Regular
177,086
X
$.02
=
$ 3,542
Premium to Regular
208,511
X
$.06
=
12,511
Subtotal
$16,053
INS
Mid-grade to Regular
298,400
X
$.02
=
$ 5,968
Premium to Regular
122,535
X
$.06
=
7,352
Subtotal
$13,320
TOTAL
$58,026
Prior to issuance of this report, we discussed the finding with FBI, INS, and BOP
management and obtained concurrence on the recommendation. The actions necessary for final
closure are discussed following the recommendation.
Recommendation
We recommend the Directors, FBI and BOP, and Commissioner, INS:
3. Purchase only regular gasoline in bulk.
Resolved. This recommendation can be closed when we receive documentation that
field sites purchasing fuels in bulk have been instructed to purchase only regular
gasoline.
BOP Can Save on Bulk Fuel Purchases through the DFSC
The DFSC is responsible for purchasing bulk fuel for all federal agencies. According to
41 CFR Subpart 101-26.602-3 Procurement of gasoline, fuel oil (diesel and burner),
kerosene, and solvents, agencies forecasting usage greater than or equal to 10,000
gallons of fuel per year shall submit estimates of annual usage to the DFSC. The DFSC uses
this information to solicit bids from fuel suppliers and award contracts.
We estimate the BOP could save about $16,000 annually if bulk fuel contracts were
obtained through the DFSC at nine sites. At these sites, fuel usage exceeded the 10,000
gallon annual requirement for the establishment of DFSC fuel contracts, but usage was not
reported to the DFSC. The non-reporting field sites are contained in the table on the
following page.
Staff at the sites were either unaware of the DFSC's reporting requirements or
misunderstood reporting thresholds. We limited our calculation of cost savings to gasoline
because it was the prevalent unreported fuel type. According to our survey, seven sites
estimated gasoline usage of 130,540 gallons for FY 1996. For comparable sites, DFSC
supplied regular gasoline was $.12 per gallon cheaper than non-DFSC supplied regular
gasoline. We estimate a cost savings of $15,665.
Prior to issuance of this report, we discussed the finding with BOP management and
obtained concurrence on the recommendation. The actions necessary for final closure are
discussed following the recommendation.
Non-Reporting BOP Sites
LOCATION
FUEL TYPE(S)
Pekin, IL
Gas
Englewood, CO
Gas
Safford, AZ
Gas
Greenville, IL
Diesel
Butner, NC
Gas
Loretto, PA
Gas
Tallahassee, FL
Gas
Oklahoma City, OK
Diesel
Sandstone, MN
Gasoline & Burner
Recommendation
We recommend the Director, BOP:
4. Ensure that forecasted fuel usage is provided to the DFSC and use the DFSC where
cost effective.
Resolved. This recommendation can be closed when we receive documentation that
field sites have been instructed to report forecasted fuel usage to the DFSC.
The FBI Can Save on Retail Purchases of Reduced
Octane Gasoline
Retail purchases account for over 90 percent of the FBI's fuel purchases. The FBI
purchases gasoline for its 11,500 standard and high performance (police cruisers, reactive
vehicles, and surveillance) vehicles. According to the FBI, about 40% of its fleet
consists of high performance vehicles. As previously discussed, 41 CFR requires that
manufacturers' recommendations for octane requirements be followed. Further, agencies are
prohibited from purchasing premium gasoline except for vehicles that require it.
The FBI has no written policy on recommended octane levels for gasoline purchases.
Within the FBI, purchase decisions for retail gasoline are at the discretion of the
individual field sites. Since the FBI does not track the octane level it uses, we
requested FBI Headquarters to solicit its field sites and determine the octane level used
by the field sites. Most sites responded they used mid-grade gasoline. However, a few
sites stated they used regular gasoline while others stated they used premium gasoline.
FBI Headquarters staff commented that overall, mid-grade gasoline is used for all its
vehicles.
We estimate the FBI could save about $602,640 per year by
requiring the purchase of regular gasoline for its vehicles in lieu of mid-grade and
premium gasoline. We derived our savings by multiplying the 6,480,000 retail gallons
purchased by the excess cost difference in retail prices between mid-grade and regular
gasoline ($.093).
FBI management provided examples of instances when the use of regular grade gasoline is
not appropriate, such as when vehicles are subject to irregular driving conditions (e.g.,
extended idling during surveillance). We agree that these conditions may warrant an
exception to the use of regular gasoline. However, in our judgment, the manufacturer's
recommended use of regular fuel for even high performance law enforcement vehicles will
serve the vast majority of the FBI's needs, and do so economically.
Prior to issuance of this report, we discussed the finding with FBI management and
obtained concurrence on the recommendation. The actions necessary for final closure are
discussed following the recommendation.
Recommendation
We recommend the Director, FBI:
5. Limit retail fuel purchases to the octane rating recommended by the vehicle
manufacturer, except when mission needs dictate otherwise.
Resolved. FBI management provided a draft copy of "Guidelines for Purchases
of Gasoline for Bureau Vehicles". This recommendation can be closed when we receive
documentation that the draft guidance has been finalized and distributed to FBI field
offices.
SCHEDULE OF DOLLAR-RELATED FINDINGS
FUNDS TO BETTER USE
AMOUNT
PAGE
Installation of Fuel Tanks: Net
present value based on savings over the 30 year life of the tanks, from the avoidance of
federal excise taxes.
BOP
$221,612
4
Unnecessary Taxes: Annual savings by
not paying inapplicable FET and SET.
BOP
18,569
5
Gasoline Octane Levels: Annual savings
resulting from use of regular gasoline instead of premium gasoline.
FBI
28,653
7
Annual savings resulting from the use of
regular gasoline instead of mid-grade and premium gasoline
BOP
INS
16,053
13,320
7
7
Central Procurement: Annual savings by
increasing its purchases through the DFSC.
BOP
15,665
8
Retail Purchases: Annual savings
resulting from use of regular gasoline instead of mid-grade gasoline.
FBI
$602,640
10
Total Funds to Better Use
$916,512
FUNDS TO BETTER USE are defined as future funds that could be used more
efficiently if management took actions to implement and complete audit recommendations.
STATEMENT ON MANAGEMENT CONTROL STRUCTURE
In planning and performing our audit of fuel purchases, we considered the BOP's, FBI's,
and INS' management control structure for the purpose of determining our auditing
procedures. This evaluation was not made for the purpose of providing assurance on each
agencies' management control structure as a whole. We did not encounter any condition
which we consider to be a reportable condition under Government Auditing Standards.
Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the management control structure that, in our
judgment, could adversely affect each agencies ability to effectively manage its fuel
purchases.
Because we are not expressing an opinion on each agencies management control structure
as a whole, this statement is intended solely for the information and use of each agency
in managing its fuel purchases. This restriction is not intended to limit the distribution
of this report, which is a matter of public record.
STATEMENT ON COMPLIANCE WITH
LAWS AND REGULATIONS
We have audited bulk fuel purchases by the BOP, FBI, and INS. Additionally, we audited
retail gasoline purchases by the FBI. The period covered by the audit included FY 1995
fuel purchases and FY 1996 projected. The audit was conducted in accordance with
Government Auditing Standards.
In connection with this audit, and as required by the standards, we tested transactions
and records to obtain reasonable assurance about each agencies compliance with laws and
regulations that, if not complied with, we believe could have a material effect on program
expenditures. Compliance with laws and regulations is the responsibility of each agencies
management.
Our audit included examining, on a test basis, evidence concerning laws and
regulations. The specific laws and regulations for which we conducted tests are contained
in 41 Code of Federal Regulations, "Public Contracts and Property Management."
The results of our tests indicated that, for the transactions and records tested, we
identified noncompliance by the BOP, FBI, and the INS on the purchase of high
octane/premium gasoline in accordance with:
· 41 Code of Federal Regulations 101-38.401-1 Gasoline for use in motor vehicles.
The results of our tests also indicated that, for the transactions and records tested,
we identified noncompliance by the BOP on reporting its bulk fuel requirements to the DFSC
in accordance with:
· 41 Code of Federal Regulations 101-26.602-3 Procurement of gasoline, fuel oil
(diesel and burner), kerosene, and solvents.
These instances of noncompliance are discussed in the finding section of this report.
With respect to those transactions not tested, nothing came to our attention that
caused us to believe that BOP, FBI, and INS management were not in compliance with the
laws and regulations cited above, other than the violations noted in our testing.
APPENDIX I
AUDIT SCOPE AND METHODOLOGY
Our audit objective was to identify if cost savings were attainable by purchasing fuel
more economically. We concentrated our audit on bulk fuel purchases (gasoline, diesel, and
burner) by the FBI, BOP, and INS and retail fuel purchases by the FBI.
We performed the audit in accordance with generally accepted government auditing
standards and included tests and procedures necessary to accomplish our objective.
However, we may not be considered by others to be completely independent of INS as
required by the standards, because INS has reimbursed us for work that pertained to INS
fee-supported programs. The Office of Management and Budget and the Department of Justice
(including the OIG, INS, and Justice Management Division) disagree with INS funding our
work and are attempting to have the funds appropriated directly to the OIG. In FY 1996,
the OIG will receive $5 million for fee-related audits, investigations, and inspections.
That dollar amount will fund approximately 14 percent of the total OIG staff positions.
Nonetheless, we consider ourselves independent and do not believe that our reimbursement
arrangements with INS have had any effect with regard to our conduct of this audit.
To identify and assess management controls, we reviewed fuel procurement practices and
interviewed Headquarters staff at the FBI, BOP, and INS.
To assess the cost effectiveness of bulk fuel purchases, we worked with the FBI, BOP,
and INS and developed a comprehensive fuel survey. The survey requested documentation and
answers on each location's last three bulk purchases by fuel type. We used this
documentation to determine whether the: fuel supplier was a DFSC contractor, sites paid
any unnecessary taxes, and type of fuel purchased was correct based upon the intended use
as entered on the purchase order. The fuel survey was mailed to 145 field sites, and all
were returned. From this, we created and analyzed a database containing over 5,000 entries
of data.
We coordinated with staff at the Defense Logistics Agency's DFSC to:  (1) identify
sites which did not supply forecasted bulk fuel requirements, (2) determine the
applicability of state excise taxes to purchases by civilian federal agencies, (3) check
the accuracy of base contract prices, and (4) determine billing requirements for federal
and state taxes on fuel purchases (some taxes are included in the base contract price,
while others are separately invoiced).
We also coordinated with staff at the Internal Revenue Service to obtain information on
the applicability of FET and other taxes to bulk fuel purchases.
To assess the cost effectiveness of FBI's retail fuel purchases, we obtained:
· information on fuel purchases by fuel type (regular, mid-grade, and premium);
· the number of fleet vehicles, identifying high performance and standard type
vehicles, and the number by make and model of high performance vehicles;
· the manufacturers' recommendations for minimum gasoline octane levels.
APPENDIX II
BOP ANNUAL FEDERAL EXCISE TAX AVOIDANCE
(in thousands)
LOCATION
TOTAL
DIESEL
(Note  1)
ESTIMATED
DYED
(Note 2)
FET
AVOIDANCE
(Note 3)
Lompoc, CA
77.7
48.2
$11.7
El Reno, OK
31.6
25.3
6.1
Sheridan, OR
34.2
12.3
3.0
Florence, CO
34.3
17.5
4.3
TOTAL
177.8
103.3
$25.1
Notes
1. Estimates of FY 1996 diesel usage provided by BOP Headquarters.
2. The applicable facility managers/garage foremen at the above sites provided
estimates of the off-road use of diesel fuel as follows:
Lompoc, CA - 62%   El Reno, OK - 80%
Sheridan, OR - 36%   Florence, CO - 51%
3. Estimated dyed diesel fuel usage multiplied by the FET rate, $.243 per gallon.
1 A tax levied on the sale, production, or consumption of
certain commodities.
2 DFSC is responsible for negotiating bulk fuel prices for all
federal agencies.
3 We calculated our savings using the net present value over
the estimated 30 year life of the tanks. Net present value is a method of calculating the
expected monetary gain or loss from a project by discounting all expected future cash
inflows and outflows to the present, using some predetermined minimum rate of return. Our
calculation is based on the assumption that the annual use of dyed diesel fuel and the FET
on clear diesel fuel remains constant. A change in these factors will either increase or
decrease the net present value amount.
4 Our calculation is based on the four sites total annual FET
cost avoidance of $25,100 less the $1,600 total annual maintenance cost. This amount was
multiplied by the present value of $1 discounted at 7 percent, the approximate current
yield on a 30 year treasury bond (federal borrowing rate).
5 Purchase and Installation Costs: 4 field sites x $17,500 for
each fuel tank = $70,000.
6 The internal rate of return is another accepted method for
calculating the cost effectiveness of a potential investment. Specifically, the internal
rate of return is the rate that makes the present value of the cash inflows from an
investment equal to an investments' cost.
7 The internal rate of return was calculated by subtracting
the $1,600 maintenance cost from the $25,100 FET cost avoidance for an annual net savings
of $23,500. The initial outlay of $70,000 for the four tanks divided by $23,500 equals
2.9787, which corresponds to about a 34% rate over 30 years based on the present value of
that annuity.
8 The price differentials for bulk gasoline were obtained
from the surveys and the American Automobile Association.
9 Excludes usage for the Quantico, Virginia training facility
because Quantico buys in bulk from the military.
#####